March 30, 2004


MEMORANDUM FOR:               JOHN L. HENSHAW
                              Assistant Secretary for
                               Occupational Safety and Health



FROM:                         ELLIOT P. LEWIS
                              Assistant Inspector General
                               for Audit

SUBJECT:                      Complaint on Susan Harwood Grant Award to
                              Solid Waste Association of North America
                              Report No. 05-04-003-10-001

An anonymous complaint stated that the Solid Waste Association of North America
(SWANA) is a trade association that represents primarily local governments and, as such,
most of the employees it represents are outside of the regulatory jurisdiction of the
Occupational Safety and Health Act of 1970 (OSH Act). As a result, the complainant
believes that the Occupational Safety and Health Administration (OSHA) should not
have funded a grant to SWANA. Based on our audit results, we conclude that SWANA
met all the requirements of eligibility to receive a Susan Harwood Institutional
Competency Building grant.

Objective and Scope

We conducted an audit of SWANA to determine the merits of an allegation that it was
ineligible to receive a Susan Harwood Institutional Competency Building grant.

To determine the merits of the allegation, we reviewed OSHA’s Grant Application
Instructions, SWANA’s Grant Application, and supporting documentation for the Grant
Application provided by SWANA. We also analyzed the SWANA membership universe.
Fieldwork was performed at SWANA offices in Silver Spring, Maryland, March 25
through March 28, 2003. Because our objective was limited to determining SWANA’s
eligibility to receive an OSHA grant, we concluded that management controls were not
significant to our objective. Accordingly, we did not assess management controls. Our
audit was performed in accordance with Government Auditing Standards.

Results

To be eligible to apply for an Institutional Competency Building grant, organizations
must be nonprofit; serve clients nationally or in multi-state areas; and provide safety and
health training, education, and services to their clients. Additionally, the Susan Harwood
Training Grant Program Application Instructions prohibit spending grant funds for
training workers or employers from workplaces not covered by the OSH Act. Section 3
of the OSH Act excludes public employers from OSHA protection in the definition of
employer. However, Section 18 of the OSH Act allows states to assume responsibility
for development and enforcement of occupational safety and health standards. Currently,
24 states and 2 US territories have approved plans under this provision. These “State
Plan states” are required to include all employees of public agencies of the state and its
political subdivisions. As such, both public and private employees in State Plan states are
covered by the OSH Act. Therefore, only public workers in non-State Plan states are
excluded from OSH Act coverage and, by extension, Susan Harwood training grant
services.

SWANA submitted a proposal to OSHA under the Susan Harwood Institutional
Competency Building program to develop a comprehensive onsite health and safety
training curriculum for personnel – including managers, supervisors and workers – in the
solid waste industry. Specifically, SWANA proposed to develop new onsite health and
safety courses for solid waste personnel in the following areas:

   •   Municipal Solid Waste Collection Services;
   •   Material Recycling Facilities; and
   •   Solid Waste Transfer Stations.

In addition, SWANA proposed to develop revisions and updates to its existing training
course for:

   •   Municipal Solid Waste Landfills.

According to the proposal, this training could have had the potential of impacting
over 250,000 managers, supervisors, and/or workers. The proposal further stated
that SWANA had more than 6,700 members, but did not identify the number of
members who were within the jurisdiction of the OSH Act, and therefore eligible
for services provided by the grant.

To recruit trainees during the grant period, SWANA proposed to provide the
onsite training packages free of charge to employers who were SWANA members
on a first-come first-serve basis. (SWANA currently charges $400 for one of its
onsite training packages.) Once the courses were developed, SWANA planned to
advertise their availability to its members through its website, newsletter and
other communication channels. With this approach, SWANA was confident that
50 onsite training packages would be distributed for each of the 4 training areas it
planned to develop (collection, recycling, transfer, and disposal) during the grant
period. SWANA assumed an average of 8 persons would be trained through each
package, resulting in an estimated 1,600 persons trained during the grant. Once
the grant was over, SWANA planned to continue to offer the courses on a fee
basis to its 6,700 members, as well as non-member solid waste organizations.



                                             2
On September 24, 2002, SWANA was awarded an Institutional Competency Building
grant of $237,277, with the grantee matching $15,000. The grant period was
September 30, 2002 through September 30, 2003. The purpose of the grant was to assist
nonprofit organizations in expanding their safety and health training, education and
related assistance capacity.

SWANA staff provided us with a membership roster by Chapter, which showed that on
October 1, 2002, SWANA had more than 6,900 members. We calculated that SWANA
had more than 3,000 members in State Plan states, where both public and private sector
members are under the jurisdiction of the OSH Act. SWANA calculated that an
additional 914 members worked in the private sector in non-State Plan states; these
workers were also eligible for services.

Based on our audit, we conclude that SWANA was eligible to receive a Susan Harwood
Institutional Competency Building grant because it is a nonprofit organization; serving
clients in multi-state areas; and providing safety and health training, education, and
services to their clients. More importantly, SWANA had nearly 4,000 members under
the regulatory jurisdiction of the OSH Act to whom they could distribute the 200 training
packets.

At the time of our fieldwork, SWANA had written only one of the training packets
(Landfill Update) but had not implemented its free distribution of the packets. As a
result, we were unable to determine if SWANA ensured that only eligible members were
provided the training packets. Since there was the possibility that SWANA members not
under the jurisdiction of the OSH Act could be served, and because SWANA’s grant
application did not address how they would distribute the packets, OSHA needs to ensure
that SWANA served only members eligible under the OSH Act.

Recommendations

We recommend that, prior to closing the grant, OSHA determine if ineligible SWANA
members were served. If a significant number of ineligible members received benefit
from the grant, OSHA should make appropriate adjustment to the grantee’s claimed
costs.

We also recommend that OSHA develop procedures to ensure grant recipients serve only
individuals who are eligible under the grant.

Agency Response

OSHA concurs with the recommendations. OSHA intends to determine the SWANA
population that received benefits under the program and will consider appropriate cost
adjustments deemed necessary by any significant controllable and inordinate
participation. OSHA is committed to reviewing grant eligibility requirements and
ensuring that the intended audience is properly identified. OSHA will develop




                                            3
procedures to ensure that grant recipients serve individuals who are eligible under the
grant regulations.

OIG Conclusion

Based on OSHA’s response, we consider the recommendations resolved. However, the
recommendations cannot be closed until OSHA provides evidence that the planned
activities have been implemented.

                                        -- -- -- --

If you have any questions, please contact Charles M. Allberry, Regional Inspector
General for Audit in Chicago at (312) 353-2416.

Attachment

cc:    Robert Poogach




                                             4
                                  Attachment



Agency Response to Draft Report




               5
6
